U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


  MANAGEMENT AND OVERSIGHT OF
SELECTED CONSTRUCTION CONTRACTS,
        REPUBLIC OF PALAU

             REPORT NO. 00-I-537
                 JULY 2000
                                                                       N-IN-PAL-002-99-R


             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Washington, DC   20240




                                                                               July 12, 2000

Honorable Kuniwo Nakamura
President
Republic of Palau
P.O. Box 100
Koror, PW 96940

Subject:   Audit Report on Management and Oversight of Selected Construction Projects,
           Republic of Palau (No. 00-I-537)

Dear President Nakamura:

This report presents the results of our audit of the Republic of Palau’s management and
oversight of selected construction projects.

Section S(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of
Inspector General to list this report in its semiannual report to the U.S. Congress. In
addition, the Office of Inspector General provides audit reports to the Congress.

Please provide a response to this report by September 15, 2000. The response should
provide the information requested in Appendix 6 and should be addressed to our Pacific
Field Office, 415 Chalan San Antonio - Suite 306, Tamuning, Guam 96911.

                                            Sincerely,



                                            Earl E. Devaney
                                            Inspector General
U.S. Department of the Interior                                            Office of Inspector General

                                   EXECUTIVE             SUMWARY

                                   Management and Oversight of
                                   Selected Construction Projects,
                                          Republic of Palau
                                         Report No. 00-I-537
                                              July 2000

BACKGROUND

The Compact of Free Association between the United States and the Republic of Palau
became effective on October 1, 1994. Under Title 2, Section 212(b), of the Compact, the
Republic of Palau received funding to promote economic development through capital
improvement projects.      As of September 30, 1998, Palau had received Compact
Section 212(b) funds of $36 million and related Section 215 funds of S 16.5 million.’ Palau
invested these funds in various securities and earned an additional $17.9 million in
investment income (net of investment expenses), which the Compact requires to be used for
economic development. For the 4-year period ending September 30, 1998, Palau received
Compact funds totaling $70.4 million ($36 million plus $16.5 million plus $17.9 million),
had 277 approved projects totaling $53.4 million, and had expended $34.4 million. Prior to
implementation of the Compact, Palau was part of the Trust Territory of the Pacific Islands
and had received capital improvement funds through the Office of Insular Affairs, U.S.
Department of the Interior.     As of September 30, 1998, 11 Trust Territory capital
improvement projects totaling $48.3 million were still active.

OBJECTIVE

The objective of the audit was to determine whether the Republic ofPalau provided adequate
management and oversight of construction projects funded by either the Trust Territory of
the Pacific Islands or Section 212(b) of the Compact of Free Association. The scope of the
audit included a review ofthe project management activities related to a sample (53 projects,
totaling $6.7 million) of the 277 Compact-funded capital improvement projects that were
active during the period of October 1994 to May 1999 and a sample (3 projects, totaling
$17.5 million) of the 11 Trust Territory projects that were active as of September 1998.




‘Under the Compact of Free Association, the Republic of Palau was to receive all Section 212(b) funding
($36 million) during the first year of the Compact. However, the Compact, which was actually signed by the
United States and the Republic of Palau in January 1986, did not become effective until October 1, 1994
because the citizens of Palau did not ratify the agreement until November 1993. As a result of the delay, an
inflation adjustment provision contained in Compact Section 2 15 provided for $16~5 million in addition to the
$36 million specified in Section 2 12(b).
RESULTS      IN BRIEF

We found that the Republic of Palau did not adequately manage National Government capital
improvement projects funded by the Trust Territory of the Pacific Islands and the Compact
of Free Association and did not ensure that Compact funds appropriated for state capital
improvement projects were used efficiently and effectively as follows:

          - The National Government did not (1) ensure that cost estimates were prepared prior
to procuring construction services, (2) perform or adequately document inspections made at
project construction sites, (3) provide clear bidding instructions to potential bidders, and (4)
adequately document administrative charges to projects. These conditions existed because
Palau’s Division of Design Engineering did not have an adequate number of properly trained
staff to effectively perform the construction procurement and project management functions.
As a result, capital improvement project funds totaling more than $2 million were not used
efficiently,   and 11 Trust Territory-funded     projects valued at $48.3 million were not
completed for periods ranging from 5 to 25 years after the funds were made available for the
projects.

         - The $5.15 million Malakal sewage treatment plant expansion project funded under
a fiscal year 1993 Trust Territory capital project has not been started, and as a result. the
existing sewage treatment plant continued operating beyond its design capacity and was
discharging pollutants into the coastal waters adjacent to the plant, potentially having an
adverse impact on Palau’s environment and the health and safety of its residents.

         - The National Government (1) used Section 212(b) funds to finance state capital
improvement     projects that were short-term in nature and did not meet the long-term
economic development needs of the states and (2) allowed the states to procure construction
services and manage construction projects without the skilled personnel needed to effectively
perform these functions.    These conditions occurred because the National Government’s
policy was to allow each state to manage its own economic development projects. In
addition, although the National Government           had identified problems with the states’
administration of their projects, corrective actions were not implemented as a condition for
future appropriations    of Compact Section 2 12(b) funds.           As a result, the National
Government lacked assurance that $4.3 million appropriated to the 16 states during fiscal
years 1995 through 1999 would result in long-term economic development improvements
and that costs of $250,000 incurred on two state-administered        construction projects were
reasonable for the services provided.      In addition, we identified problems related to road
construction   and land use on Babeldaob Island that could significantly hamper future
economic growth if corrective action is not taken.

RECOMMENDATIONS

We made 13 recommendations        to the President of the Republic of Palau to address the
deficiencies disclosed by our review.     Specifically, we recommended    that the National
Government request a technical assistance grant to assist in strengthening the Division of
Engineering, establish professional requirements for engineering positions and fill those


                                              2
positions, develop a methodology for distributing the fringe benefit costs of inspectors
among all pertinent projects, and take action to expedite the completion of the blalakal
sewage treatment plant expansion project. We also recommended, with regard to state
projects, that the National Government prohibit the use ofcompact Section 2 12(b) f&ds for
such short-term purposes as the repair and maintenance of roads, equipment, and structures;
develop a plan to consolidate the road maintenance resources of the states on Babeldaob
Island and integrate the National and state road systems; assist the states in developing
master land use plans; enforce the National zoning laws and assist the states in developing
local zoning laws; require the Bureau of Public Works to procure construction and project
management services for Compact-funded state projects; and require the establishment of a
uniform building code.

AUDITEE COMMENTS            AND OIG EVALUATION

The President of the Republic of Palau’s response to the draft report agreed with 11 of the
 13 recommendations. The response disagreed with and provided additional information on
two recommendations concerning Babeldaob Island roads and National zoning laws. Based
on information provided in the response, we revised the remaining two recommendations and
requested an additional reply.




                                            3
                                           CONTENTS

                                                                                                                    Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . , . . . . _ . . . .                   1


INTRODUCTION            ..................................................... 7

        BACKGROUND ...............................................                                                      7
        OBJECTIVE AND SCOPE .......................................                                                     8
        PRIOR AUDIT COVERAGE .....................................                                                      9

FINDINGS AND RECOMMENDATIONS                            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

        A. NATIONAL GOVERNMENT PROJECTS . . . . . . . . . . . . . . . . . . . . . 10
        B. STATE PROJECTS .. .. .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .20


APPENDICES

        1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . , . . . . . . . .                                        35
        2. COMPACT SECTION 212(b) AND RELATED FUNDING
              PROVIDED TO THE REPUBLIC OF PALAU . . _ . . . . _ . . . . . . . .                                      36
        3. CAPITAL IMPROVEMENT PROJECTS FUNDED BY THE
              TRUST TERRITORY OF THE PACIFIC ISLANDS . . . . . . . . . . . . .                                       37
        4. COMPACT SECTION 2 12(b) FUNDS APPROPRIATED TO THE
              STATES OF THE REPUBLIC OF PALAU . . . . . . . . . . . . . . . . . . . .                                38
        5. OFFICE OF THE PRESIDENT RESPONSE . , . . . . . . . . . . , . . . . . . . . . .                            39
        6. STATUS OF AUDIT REPORT RECOMMENDATIONS . . . . . . . . .                                                  48




                                                    5
--
                                      INTRODUCTION

BACKGROUND

The Compact of Free Association between the United States and the Republic of Palau
became effective on October 1, 1994. Under Title 2, Section 2 12(b), of the Compact, the
Republic of Palau received funding to promote economic development through capital
improvement projects. The types of projects for which the Section 212(b) funds could be
used and annual reporting requirements were contained in a supplemental agreement to the
Compact. As of September 30, 1998, Palau had received Compact Section 2 12(b) funds of
$36 million and related Section 2 15 f%nds of $16.5 million.’ Palau invested these funds in
various securities and earned an additional $17.9 million in investment income (net of
investment expenses), which the Compact requires to be used for economic development.
Therefore, Palau, for the 4 fiscal years reviewed ending September 30, 1998, received
Compact funds totaling $70.4 million ($36 million plus $16.5 million plus $17.9 million)
and had expenditures      totaling $34.4 million,   unexpended     appropriations  totaling
$10.3 million, and unappropriated funds totaling $25.7 million (these amounts are detailed
in Appendix 2).

Under the Constitution of the Republic of Palau: the National Government consists of an
Executive Branch, with an elected President; a bicameral Legislative Branch (National
Congress); and a Judicial Branch. In addition, the Constitution created 16 separate states,
each with a governor and a legislature. The expenditure of Compact funds is authorized by
appropriations passed by the National Congress as part ofthe National Government’s annual
budget. Compact Section 2 12(b)-funded projects are divided into two categories: projects
administered by the National Government and projects administered by the individual states.

In addition to the Compact funds, Palau, prior to implementation         of the Compact in
October 1994, was a part of the Trust Territory of the Pacific Islands and received capital
improvement      funds on a discretionary  basis through the Office of Insular Affairs,
U.S. Department of the Interior, which provided administrative oversight through a capital
project coordinator located in Palau. The U.S. Naval Facilities Engineering Command.
through an agreement with the U.S. Department of the Interior, directly managed the Trust
Territory capital projects in Palau. Since implementation   of the Compact, the remaining
Trust Territory capital projects have been managed by the Division of Design Engineering
of Palau’s Bureau of Public Works. with the U.S. Naval Facilities Engineering Command
providing construction inspection services on behalf of the Office of Insular Affairs. As of
September 30, 1998, 11 Trust Territory capital project grants, totaling $48.3 million, were
still active (see Appendix 3).


?Jnder the Compact of Free Association, the Republic of Palau was to receive all Section 212(b) funding
($36 million) during the first year ofthe Compact. However, the Compact, which was actually signed by the
United States and the Republic of Palau in January 1986, did not become effective until October 1, 1994
because the citizens of Palau did not ratify the agreement until November 1993. As a result of the delay, an
inflation adjustment provision contained in Compact Section 215 provided for $16.5 million in addition to the
$36 million specified in Section 2 1Z(b).

                                                     7
Title 40, Chapter 6, Section 608, of the Palau National Code Annotated states, “The
Procurement Officer for construction and architectural and engineering contracts shall be the
Director of the Bureau of Public Works.” However, each state governor was allowed by the
Code to be the procurement officer for the respective state and had the authority to procure
construction services for state construction projects, including Section 2 12(b)-funded
projects. Unless a state voluntarily had the National Government perform the project
procurement and construction management functions, the individual states were responsible
for ensuring that the funds appropriated by the National Government were spent in
accordance with applicable procurement laws and used to complete the projects successfully.
The National Government maintained some control over the states’ administration of the
Section 2 12(b) funds through an allotment process by which the Section 2 12(b)-appropriated
funds were transferred to the individual states upon request. In addition, each state was
required to prepare annual financial statements, which were audited by the Republic’s Office
of the Public Auditor as part of the single audits required by the Compact.

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether the Republic of Palau and the Office of
Insular Affairs, U.S. Department of the Interior, provided adequate management and
oversight of construction projects funded by either the Trust Territory of the Pacific Islands
or Section 212(b) of the Compact of Free Association. To accomplish our objective, we
interviewed officials of the Palau National Government, 12 of the 16 state governments, the
Office of Insular Affairs, and the U.S. Naval Facilities Engineering Command. We also
reviewed applicable financial and administrative records for National and state projects to
obtain information regarding the status of the capital improvement projects selected for
review. The scope ofthe audit included a review ofthe project management activities related
to a sample (53 projects totaling $6.7 million) of the 277 Compact-funded capital
improvement projects, totaling $53.4 million, that were active during October 1994 through
May 1999 and a sample (3 projects, totaling $17.5 million) of the I 1 Trust Territory projects,
totaling $48.3 million, that were active as of September 1998.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

As part of the audit, we evaluated the accounting and management controls over National
and state government capital project appropriations, expenditures, procurement, and
construction management.      Based on our review, we identified major internal control
weaknesses in all four areas. The internal control weaknesses are discussed in the Findings
and Recommendations section of this report. Our recommendations, if implemented, should
improve the internal controls in these areas.




                                               8
PRIOR AUDIT COVERAGE

 During the past 5 years, neither the General Accounting Office nor the Office of Inspector
 General has issued any audit reports on Trust Territory- or Compact-funded               capital
 improvement projects in the Republic of Palau. However. the Office of the Public Auditor.
Republic of Palau, issued single audit reports on 14 of Palau’s 16 individual states for fiscal
year 1996. (Two states had not prepared financial statements for fiscal year 1996.) The
single audit reports disclosed internal control weaknesses related to the states’ accounting
systems and compliance with the requirement that Section 2 12(b) funds should be expended
by the states only on projects for which funds were appropriated                 by the National
Government.     In addition, the single audit report on the National Government for fiscal year
 1997 disclosed     weaknesses    related to compliance      with the National Government’s
procurement    law, compliance with reporting requirements           for U.S. Department of the
Interior-funded capital improvement projects, and the recording ofproject expenditures. The
weaknesses     were similar to the procurement,          administrative    charges, and project
specification problems that we found during our current audit, which related to the internal
controls over project procurement,           accounting    for expenditures,    and formulating
appropriations   for capital improvement projects.




                                              9
               FINDINGS          AND RECOMMENDATIONS

A. NATIONAL           GOVERNMENT             PROJECTS

The Republic of Palau did not adequately manage construction projects funded by the Trust
Territory of the Pacific Islands and the Compact of Free Association. Specifically, the
National Government did not (1) ensure that cost estimates were prepared prior to starting
projects, (2) perform or adequately document inspections made at project sites, (3) provide
clear bidding instructions to potential bidders, and (4) adequately document administrative
charges to projects. The requirements for the administration of the capital improvement
projects were contained in the grants by which Trust Territory and Compact funds were
provided to the National Government. However, Palau’s Division of Design Engineering
was not staffed with sufficient professional and technical personnel for the scope and
complexity ofprojects under its control, did not have written project inspection procedures,
and did not have a training program for Division staff. As a result, capital improvement
project funds totaling almost $1.8 million were not used efficiently, and 11 Trust
Territory-funded projects valued at $48.3 million were not completed for periods ranging
from 5 to 25 years after the funds were made available for the projects. We also found that
the $5.15 million grant to expand the Malakal sewage treatment plant was not used as
planned and that the existing plant was operating beyond its design capacity, resulting in the
discharge of pollutants into the coastal waters adjacent to the plant.

Project Management

Based on a review of four National capital improvement projects (three Trust
Territory-projects and one Section 212(b)-funded project), we found that the Division of
Design Engineering did not adequately manage these projects. As a result, the Division
approved questionable change orders representing cost increases of $755,919 and may have
to pay $255,000 more for a construction project because of unclear bidding requirements.
In addition, the National Government had to absorb labor and other administrative costs
totaling $765.73 1 that were disallowed by the Office of Insular Affairs.

        Cost Estimates. Cost estimates were not prepared prior to starting the projects or
negotiating contract change orders. Consequently, the National Government had little
assurance that infrastructure projects were negotiated at the most advantageous prices. For
example, on January 3 1,1997, the Division issued aNotice of Award for a $235,000 contract
to construct a waterline and storage tank in the Village of Imeong in the Ngeremlengui State
under a Section 2 12(b)-funded project. The scope of work was expanded through a change
order on November 17, 1997 to add five additional waterlines. The justification for the
change order stated that the five additional waterlines were not included in the original bid
proposal because the Division believed that the combined costs would exceed project
funding. However, after the bid opening on November 8, 1996, the Division realized that
the whole system for the village, including the five additional waterlines, could be
constructed within available funding limits. Therefore, on May 14, 1997, the Division
requested that the contractor develop an estimate for the additional work. On October 20.
1997, the contractor provided the estimate of $284,475 for the additional work, which was

                                             10
 accepted by the Division. However, we could not find documentation showing that cost
 estimates for each of the six waterlines had been prepared by the Division prior to the
 original solicitation of bids for the project. When we requested the National Government’s
 estimated cost for the additional five waterlines, we were given an estimate dated February 5,
 1997, which showed that the National Government’s estimate was $255,656, or $28,819
 lower than the contractor’s estimate and the actual change order amount. We were not
 provided any documents that explained why the contractor was not required to accept the
 National Government’s lower estimate. The Manager of the Division of Design Engineering
 stated that he did not solicit bids for the additional five waterlines because soliciting bids
 would have delayed the project.

 In another example, during the trenching for sewer lines on the Trust Territory-funded Koror
 Wastewater System Improvements Project (No. T-224), the contractor encountered hard
 rock. The Division of Design Engineering issued a change order to cover the contractor’s
 first invoice of $62,926 for rock removal on a “time and materials” basis: and the Office of
 Insular Affairs approved this change order. After more rock was found, the Director of
 Design Engineering approved, on an incremental basis, subsequent contractor billings
 totaling $375,393 to remove the rock. However, the Division of Design Engineering did not
perform any testing to estimate the total amount of rock that would have to be removed and
did not consider changing the method of payment to a more favorable “volume” basis.’
Under the time and materials basis: a contractor has little incentive to perform work timely,
since the contractor’s payments are not dependent on performing the work within specific
time frames. Because there was no estimate on what the total cost would be and no
preapproval of any other change orders to cover the additional charges, as were required
under the grant agreement, the National Government incurred an additional $375,393 that
was not approved by the Office of Insular Affairs and that will not be reimbursed under the
project grant agreement. Furthermore, the project was delayed for more than 1 year when
the contractor stopped work in April 1997 because of nonreceipt of payment on outstanding
invoices. The contractor resumed work in January 1999 after the National Government
agreed in writing to compensate the contractor for the outstanding invoices. As of May
1999, the project had not been completed.

            Project            The Division did not perform or adequately document
                      Inspections.
inspections made at the project sites. For example, two contract change orders, totaling
$35 1,707, were approved to repair leaks in the Peleliu State’s existing waterlines as part of
the Trust Territory-funded Rural Water Systems Project (No. T-209). However. the
U.S. Naval Engineering Command inspector stated in his field inspection report that during
his August 22, 1996 oversight        visit to Peleliu, the Division’s     inspector accompanying         him
could not identify where the contractor had made repairs to the waterlines except for three
areas where water valve replacements could be verified. The Naval inspector also reported
that there were no signs of recent excavation along the existing waterlines to indicate that



‘The time and materials method provides for the payment of the actual labor, equipment. and material costs
incurred.

‘The volume method establishes a rate to be paid per cubic measure of material excavated or filled in.

                                                     11
leaks had been identified and repaired. The Naval inspector further reported that the
Division was unable to provide any records. including contractor documentation sho\x ing
the scope of the contractor’s work or its approval by the Division’s inspector. The project
grant agreement between the Office of Insular Affairs and the National Government required
the Division to inspect and verify construction work prior to the approval of progress
payments. However, in this case, the contractor was paid the total amount of $351,707
without such inspections and approvals having been performed and/or documented. The
Minister of Resources and Development, whose ministry has oversight responsibility for the
Division of Design Engineering, stated in a June 19, 1997 letter to the Office of Insular
Affairs that the National Government had initially had an inspector on site but that the
inspector’s employment contract expired during the project and he was not replaced. The
Minister further stated in the letter that it was a “mistake” to rely on the contractor to perform
the required work without an inspector present to verify that the work had been performed.
As a result of not being able to verify the extent of repair work performed under the change
order, the Office of Insular Affairs capital improvement project coordinator rejected the
National Government’s claim for $351,707, an amount that ultimately will have to be
absorbed by the National Government.

        Procurement     Requirements.      In October 1998, the Division of Design Engineering
solicited sealed bids for the Trust Territory-funded Koror Sewage Treatment Plant Expansion
Project (No. T-232). However. the award of the contract was delayed because of protests by
the two firms that were bidding on the contract. The dispute related to whether the National
Government required the bid bond to be issued by a surety firm approved by the
U.S. Treasury Department or whether that requirement had been waived by the Division’s
Manager. According to the Palau Attorney General, the Manager may have given conflicting
and unclear bidding instructions to the low-est bidder and that because of this procedural
error, the bidder, who was otherwise considered responsive, was eliminated from
consideration because he did not submit a bid bond issued by a U.S. Treasury-approved
surety firm. In April 1999, the Palau Attorney General ruled that the contract could be
awarded to the second bidder, resulting in the awarded contract being $255,000 higher than
if the contract had been awarded to the lowest bidder.

         Administrative    Charges. We determined that the Office of Insular Affairs capital
improvement project coordinator had rejected National Government claims against Trust
Territory-funded grants totaling $76.5,731 that included vacation pay and administrative costs
because the charges could not be related directly to specific projects. For example, the Office
of Insular Affairs coordinator stated that he had denied the claim for the entire cost of an
inspector’s vacation pay because the inspector had not worked on the project during his
vacation. A pro rata portion of the cost of the inspector’s vacation is a legitimate project
cost, provided that (1) the Division uses an equitable basis to allocate the cost to all the
projects on which the inspector works in the same proportion that the inspector’s time is
charged and (2) the cost has not been recovered through the approved indirect cost rate.
Therefore, the Division should develop a method for allocating the vacation time and other
fringe benefit costs of inspectors equitably among all projects on which the inspectors work
and ensure that detailed distribution records are maintained to document the basis of the
allocations.


                                               12
Division Staffing

We determined that the deficiencies relating to project management occurred because the
Division of Design Engineering did not have (1) adequate staffing, (2) a properly qualified
manager, and (3) an active staff training program. These conditions are discussed in the
paragraphs that follow.

         Project    Management             As of May 1999, the Division’s technical staff
                                      Staff.
consisted of 1 licensed civil engineer, 2 civil engineers (with degrees), 1 architect (with a
degree), and 13 support staff (4 surveyors, 8 inspectors, and 1 draftsman). However, this
level of technical staffing was not in compliance with the requirements of the Trust Territory
grant agreements for capital improvement projects and was insufficient to effectively perform
construction management for the National Government’s Section 2 12(b)-tided and Trust
Territory-funded projects. For example, under the Koror Wastewater System Improvements
Project (No. T-224), which was started in 1992 and was in progress as of May 1999, the
Division was to be staffed by a manager/chief engineer, a structural engineer, an electrical
engineer, and a mechanical engineer. Although the Division had a civil enginee? on staff
during the review, it did not have structural, electrical, or mechanical engineers on staff. We
were unable to determine, because of the lack of documentation, whether the engineers were
included in the Division’s budget.

The National Master Development Plan for the Republic of Palau, issued in April 1996,
recognized the critical function of the Division of Design Engineering in implementing
capital improvement projects and specifically recommended that the Division be staffed with
additional personnel who had recognized engineering qualifications and “substantial
experience” in project design and management. The most recent position classification plan
for the Division was completed in April 1987 under the National Civil Service System.
According to the Director, Bureau of Public Service System, none of the engineering
disciplines were included because the former Director of the Bureau of Public Works had not
requested that Palau’s Public Service System include engineering positions in the civil
service study. As such, the National Government had not taken actions to fully staff the
Division with qualified personnel. Engineers were hired under contract when local qualified
engineers were not available, but the salary rates were not competitive, which made it more
difficult to hire qualified replacements if the existing engineers did not renew their
employment contracts.

         Division Manager. We found that the Division Manager, who had held that position
since September 4, 1994, did not have an engineering degree or prior construction
management experience. Therefore, he did not meet the position classification requirements
that the Manager should be a graduate engineer or an architect with 8 years of progressively
responsible work experience, including 4 years in a supervisory capacity. In addition, since
May 1998, the Manager was also hnctioning as the Acting Director of both the Bureau of



5A civil engineer would have an understanding of the structural, electrical, and mechanical disciplines but
would not have the in-depth knowledge that an engineer specializing in these disciplines would have.

                                                    13
Public Works and the Bureau of Public Utilities. In our opinion, the day-to-day operations
of three technical organizations should not be managed by one individual.

         Staff Training. The Division did not have an adequate training program to improve
the skills of its staff with regard to project inspection and construction procurement
procedures. The U.S. Naval Facilities Engineering Command inspector stated that Division
staff did not have sufficient training or experience in reviewing construction plans or were
not trained in all inspection tasks. Based on the personnel files, we found that only one
inspector had received extensive training in inspection and trade techniques and that he had
received this training during his employment as a civilian with the U.S. Navy from 1973 to
1991. The Division’s Manager stated that a training program had not been established
because the work load associated with the high number of projects and budgetary constraints
would have precluded staff from attending the classes. The Manager also said that on
May 20, 1999, he had requested assistance from the Office of Insular Affairs project
coordinator in obtaining training for his staff from the U.S. Naval Facilities Engineering
Command on Guam in the areas of contract administration; field inspection procedures in
civil, mechanical, and electrical work; document control; and project cost accounting and
reporting. The Office of Insular Affairs had not responded to the Manager as of the
completion of our fieldwork.

The need for training in construction procurement procedures was emphasized and
recommended in April 1999, when Palau’s Attorney General, in an opinion concerning the
construction procurement dispute for the Koror Sewage Treatment Plant Expansion Project,
stated, “There are certainly many procedural problems in this procurement which need to be
avoided in the future. These problems appear to result from a lack of familiarity with the
procurement system and training.” Furthermore, the Attorney General said that the position
of procurement officer at the Bureau of Public Works had been vacant for about 1 l/2 years,
which we believe may have contributed to the lack of oversight in detecting the procedural
errors occurring during the procurement process. The Attorney General stated that unless
procurement activities were conducted in an “orderly manner,” the process “will suffer and
so will the quality of the procurements.”

We believe that if the National Government cam-rot augment existing Division staff with
qualified and sufficient numbers of personnel and implement an effective staff training
program, it should explore the option of contracting out these functions to a private
engineering firm or to a U.S. Government agency, such as the U.S. Naval Facilities
Engineering Command.

Malakal Sewage Treatment Plant

The Malakal sewage treatment plant expansion project in the Koror State was authorized
$5.15 million in fiscal year 1993. However, at the time of our audit, construction of the plant
had not begun because the National Government had not determined which of two alternate
expansion options to pursue and because of deficiencies in soliciting bids for the original
construction contract. Because the project has not been completed, the Office of Insular
Affairs indicated it may reprogram the funds to projects outside Palau. In addition, the

                                              14
existing sewage treatment plant continued to operate beyond its design capacity. resulting in
the discharge of pollutants into the coastal waters adjacent to the plant.

         Existing Treatment           The Bureau of Public Utilities, Ministry of Resources
                                  Plant.
and Development, operates the Malakal sewage treatment plant (see Figure l), which is the
only sewage treatment plant serving the Koror State, the most heavily populated area in
Palau. The facility is a mechanical treatment plant that was built in 1976.




      Figure 1. Overview ofthe Malakul sewage treatment plant. The tanks hold wastewater durmg
      the treatment process. (Ofice of insular Aflairs photograph)


In September 1985, authorization was given by the U.S. Environmental Protection Agency
for the discharge of treated wastewater from the plant in accordance with limitations for
treated wastewater, monitoring requirements, and other conditions imposed by the
Environmental Protection Agency. However, since 1993, the treatment plant’s operations
have not met these requirements, and the Bureau of Public Utilities has been cited on a
continuous basis by Palau’s Environmental Quality Protection Board6 for exceeding the
discharge limitations (that is, excessive floating materials, scum, turbidity, odors, and
coliform bacteria counts) and for not properly operating and maintaining the treatment plant.

In August 1994, the Wastewater Facilities Plan, which was commissioned by the National
Government, reported that the Malakal sewage treatment plant was operating beyond its



6The Palau Environmental Quality Protection Board, which is responsible for enforcing Palau’s environmental
laws, was created on May 2.5, 1983 with enactment of Republic of Palau Public Law I-58, the Environmsntal
Quality Protection Act. Palau has adopted the U.S. National Pollution Discharge Elimination System
regulations that became effective in October 1994.

                                                    15
design capacity and was in critical need of capital improvements for plant expansion and
upgrading, such as repairing or replacing the compressor and the blower (see Figure 2).




          Figure 2. The compressor and the blower at the Malakal sewage treatment plant
          used to oxygenate sewage during the initial stage of the treatment cycle were
          inoperative. (Palau Environmental Quality Protection Boardphotograph)


The need to expand the capacity of the treatment plant to meet not only the present demand
but also the increased demand expected from future economic development was also
addressed in the Republic of Palau’s National Master Development Plan, which was issued
in April 1996. The Master Development Plan stated, with respect to the wastewater system,
“Unless this expansion takes place in the next few years, the Koror sewer system and the
Malakal sewage treatment plant will not be able to protect the environment and the public
health ofthe people of Koror.” In June 1997, an engineering consulting firm issued its report
“Study of Wastewater Treatment & Disposal Alternatives,” which confinned the need for
expanded capacity. The report stated that since 1995, the estimated water flow at the plant
had exceeded both the plant’s overall rated capacity and the permitted effluent flow of
0.75 million gallons per day and concluded that the treatment plant was “overloaded.”

         Expansion Proposals. In an effort to assist the Republic of Palau with its public
infrastructure needs, the Offtce of Insular Affairs has provided, since 1989, through the
U.S. Army Corps of Engineers, periodic independent reviews of the status of Palau’s public
infrastructure. The most recent review was completed in February 1998. In addressing
deficiencies with the sewage treatment plant that were identified through these reviews,
Palau received, during fiscal years 1993 through 1995, Trust Territory funds totaling




                                               16
$5.15 million for the Koror Sewage Treatment Plant Expansion Project’ (No. T-232), which
were intended to double the capacity of the existing treatment plant. In March 1997, the final
design for a “mirror-image” mechanical treatment plant was completed by the National
Government’s consulting engineer. However, in June 1997, the National Government
contemplated redesigning the project to incorporate a ponding system that would interface
with the existing mechanical treatment plant. The ponding concept, which requires the use
of man-made ponds to hold the wastewater as part of the treatment cycle, was advocated by
a consulting engineering firm contracted by Koror State. In August 1998, the Office of
Insular Affairs informed National Government officials that while it did not have strong
objections to the construction of a ponding system, the project needed to be implemented
soon, since funding for the project was appropriated in 1993 because of its urgency. The
representative further stated that if actions were not taken to implement the project. the
Office of Insular Affairs would consider reprogramming unused project funding to other
capital improvement projects outside Palau.

 In October 1998, the National Government solicited sealed bids for the project based on the
original plans for a mechanical treatment plant. However, the award of the construction
contract was delayed because of deficiencies in the bidding process (see the section
 “Procurement Requirements” in this report). The project was further delayed because, as
recently as May 1999, a traditional high chief for Koror State requested that the National
Government repair the existing plant and design and build the alternate ponding system
plant. The Office of Insular Affairs project coordinator stated that the concept of a ponding
system was a “promising alternative” as long as the necessary land could be made available.
However, the U.S. Environmental Protection Agency recommended against the ponding and
wetland system because acreage was insufficient at the Malakal Island site to construct the
needed wetland of adequate size to meet future population growth in Koror State. Because
the National Government has not acted expeditiously to expand the sewage treatment facility,
pollutants continue to be discharged into the coastal waters adjacent to the plant.

Recommendations

We recommend that the President of the Republic of Palau:

         1. Direct the Minister of Resources and Development to request a technical
assistance grant from the Office of Insular Affairs, U.S. Department of the Interior, for the
purpose of contracting with the U.S. Naval Facilities Engineering Command to perform an
assessment of the technical and administrative staffing and training needed by the Division,
to develop an implementation plan to correct any deficiencies identified by the assessment,
and to assist Palau in implementing the staffing and training plans.

        2. Direct the Minister of Resources and Development to hire individuals for the
positions of Director, Bureau of Public Works, and Director, Bureau of Public Utilities. in


‘Although the grant for expansion of the sewage treatment plant is officially titled the “Koror Sewage
Treatment Plant Expansion Project,” referring to Koror State, the sewage treatment plant is located on Malakal
Island and therefore is commonly referred to as the “Malakal Sewage Treatment Plant.”

                                                      17
accordance with established civil service regulations and rescind the designation of the
Manager, Division of Design Engineering, to these positions.

         3. Direct the Director of the Public Service System to establish civil service position
classifications for professional engineering and other technical positions identified in the
assessment performed in accordance with Recommendation 1.

        4. Direct the Minister of Resources and Development to ensure that the Division of
Design Engineering develops a method for allocating the vacation time and other fiinge
benefit costs of inspectors equitably among all projects on which the inspectors work and
maintains detailed distribution records to document the basis of the allocations.

        5. Direct the Minister of Resources and Development to take actions to expedite the
completion of the Malakal sewage treatment plant expansion project.

Republic of Palau Response and Office of Inspector General Reply

The April 7, 2000 response (Appendix 5) to the draft report from the President of the
Republic of Palau said that the Republic has “already taken or will soon take” the actions
specified in Recommendations 1 through 5. The Republic, however, should provide the
additional information on the recommendations detailed in Appendix 6.

General Comments on Finding

The President’s response provided additional comments on the finding, which are addressed
in the paragraphs that follow.

        Project Inspections.     The response provided a historical perspective on Peleliu
Island’s water system problems and the capital improvement projects implemented to correct
the problems. Although the response did not address the lack of inspections by the Division
of Design Engineering for the particular project identified in our report, the response did
indicate that additional funding and inspectors had been provided. In addition, Palau Public
Law 5-34, which became effective on September 28, 1999, included specific language for
the Division of Design Engineering to provide a greater level inspection of nationally funded
construction projects.

        Procurement     Requirements.     The response stated that the basis for selecting the
second lowest bidder for the sewage treatment plant was that the National Government was
concerned that awarding the contract to the lowest bidder could put the project at risk if the
contractor should default because the contractor had not obtained a bid bond from a U.S.
Treasury-approved surety firm. While we agree with the National Government’s concern
about the potential risk if the contractor should default on the contract, our audit concern was
with the apparent informal modification of the bonding requirement for the contractor that
had the lowest bid, which resulted in a protest being filed and the next lowest bidder
receiving the contract. The lack of uniformity in the procurement process for the sewage


                                               18
treatment plant was part of the reason why our report emphasized the need for procurement
training.

        Project Management      Staff.   The response stated that it is the goal of the Division
of Design Engineering, with the guidance from the Minister of Resources and Development,
to improve the implementation of national and state capital improvement projects through
the application of approved construction standards at the lowest cost. In that regard, two
professional engineers are being recruited, with additional funding being provided in fiscal
year 2000 to hire two more inspectors.

         Staff Training.   The response stated that the Division of Design Engineering had
made considerable progress in its ability to manage capital improvement projects and that
since 1994, 108 (90 percent) of 120 projects had been completed. The response also
commented that technical assistance was needed to develop a training program for the
Division and that the development of the training courses, as well as the actual conduct of
the training, was a long-term process. The response included a description of some of the
construction-related training offered in 1995 and 1998 and stated that the Palau Community
College had been requested to develop a construction inspection course to be held at night
for inspectors. We fully agree with the National Governments’s efforts to hire additional
technical staff for the Division and to provide job-related training. Implementation of
Recommendation 1, that a technical assistance grant should be requested from the Office of
Insular Affairs, U.S. Department of the Interior, for an assessment of the Division’s staffiig
and training needs, should help to improve the National Government’s ability to manage
construction projects.

       Reprogramming       of Unused     Funds.   Although the reprogramming of residual
balances of funds for completed Trust Territory capital projects was not an audit issue, the
response stated that Palau had requested approval from the Office of Insular Affairs, U.S.
Department of the Interior, to have any unspent project appropriations reprogrammed for use
on national water and sewage system improvements and other infrastructure purposes within
Palau, such as school building repairs. However the response further commented that such
reprogramming was not allowed by the Office of Insular Affairs.




                                              19
B. STATE PROJECTS

The Compact Section 2 12(b) funds appropriated by the National Congress of the Republic
of Palau to the individual states of the Republic were not used effectively and efficiently.
Specifically, the National Government funded state capital improvement projects that did not
appear to meet the long-term economic development needs of the states but were based on
short-term operating needs, such as routine repairs and maintenance of roads, bridges, and
other facilities and the purchase of heavy equipment. In addition, the Republic allowed the
states to procure construction services and manage construction projects without the skilled
personnel needed to effectively perform these functions. The Implementation Agreement
of the Compact of Free Association describes the types of projects for which Section 212(b)
funds can be used. However, the National Government did not take actions to correct the
deficiencies because the Palau National Code allowed each state to procure and manage its
construction projects. As a result, the National Government had little assurance that almost
$4.3 million appropriated to the 16 states during fiscal years 1995 through 1999 would result
in long-term economic development improvements or that two states received full value for
facilities constructed at a total cost of $205,000. In addition, we believe that future economic
growth could be hampered for the states on Babeldaob Island if deficiencies related to road
construction and land use planning are not addressed.

Project Selection

Compact Section 212(b) funds were provided for “capital account purposes” to assist the
Republic of Palau in its efforts to “advance economic development and self-sufftciency of
the people of Palau.” The Agreement Concerning Procedures for the Implementation of
                                                                        in
United States Economic Assistance, Programs and Services Provided the Compact of Free
Association between the Government of the United States and the Government of the
Republic of Palau (hereafter referred to as the Implementation Agreement) further required
that Section 212(b) funds be used for the “construction or major repair of capital
infrastructure, the financing of public sector projects identified in the official overall
economic development plans, or public sector participation in private sector projects which
are so identified.” The Implementation Agreement specifically excluded “normal operations
and maintenance” as allowable uses of Section 2 12(b) funds.

Our review of 52 state-administered projects, totaling $5.2 million, that were funded by
Compact Section 212(b) disclosed that the National Government was aware of problems
with the type of capital improvement projects implemented by the states and with the states’
administration of the projects. This resulted in little assurance that almost $4.3 million in
appropriations would result in long-term economic development improvements.               The
National Government attempted to address these problems as follows:

        - The Public Auditor’s reports on the annual audits of each state’s financial
statements disclosed significant deficiencies in the states’ accounting for Section 212(b)
funds and with the states’ use of Section 2 12(b) funds for projects other than those for which
the funds were appropriated. These deficiencies occurred, according to the reports, because
of the lack of accounting systems that could track how the Compact funds appropriated to

                                              20
the states were spent and the lack of trained accounting personnel at the state level. As a
result, the National Government provided technical assistance to the states to establish
accounting systems and to train state personnel to use the accounting system. The National
Government also established internal controls that required each state to justify the release
of project allotments from the Bureau ofNational Treasury to the state. However, according
to the Public Auditor for Palau, accounting deficiencies still existed.

        - During April and June 1997, the Senate Committee on Capital Improvement
Projects and Land Matters of the National Congress reviewed state capital improvement
projects to determine past performance of the states and to set new priorities for future
appropriations. Their report addressed problems with the administration of state capital
projects funded with local and compact funds, such as regrading dirt roads instead of paving
them and purchasing heavy equipment and constructing buildings without providing routine
repair and maintenance.

         - The President of Palau periodically performed site visits to the states to view the
progress of ongoing projects, but reports on these visits were not prepared to summarize the
results of the President’s visits.      However, the President’s transmittal letters that
accompanied appropriations bills to the National Congress highlighted similar deficiencies
in the selection and administration of state capital improvement projects, as well as
suggestions for correcting the deficiencies. In fiscal year 1998, the President vetoed all state
projects proposed for funding with Section 212(b) funds because of the deficiencies he had
identified in the proposed projects.

         - Officials at two agencies within the National Government’s Executive Branch said
that they were concerned that the environment on Babeldaob Island would be negatively
impacted by the construction of new roads and the lack of zoning to control development
in the states.

Examples of deficiencies related to state capital improvement projects that we identified
during our review are discussed in the paragraphs that follow.

         Roads and Bridges. During fiscal years 1995 through 1999, the states received
appropriations of Section 212(b) funds totaling $2.02 million for road and bridge projects.
This amount included $629,500 for the maintenance of roads, although the use of
Section 2 12(b) funds for regular road maintenance was unallowable under the terms of the
Implementation Agreement and had been questioned by the National Congress 1997 report
on state projects as an inefficient use of Section 212(b) funds. For example, the National
Congress report was critical of the states for building roads without paving them, which
resulted in the continuous need to regrade the roads and cover them with coral aggregate.
The report stated that it would have been more economical to pave each road as it was being
built. During our site visits to 7 of the 10 states on Babeldaob Island, we identified
deficiencies in road maintenance projects that were funded with Section 212(b) funds as
follows:




                                              21
       - In fiscal year 1996, one state received Section 212(b) funds of $40,000 for road
maintenance. According to the state governor, the project was to “clear and clean ditches
along the roads.” The state governor said that he could not maintain his state’s roads
without the Section 2 12(b) funding.

        - In fiscal year 1996, another state received Section 212(b) funds of $50,000 to,
according to the state governor, “patch up the existing paved road with work performed by
state employees” and perform “monthly maintenance of the road.” In fiscal year 1999, this
same state received $250,000 to be used to resurface roads and for other state projects.

In our opinion, recurring repairs and maintenance of roads are normal operating functions
that should be funded through the operating funds of the National Government and/or the
state governments. Section 212(b) funds should be used only for the construction or major
reconstruction of roads.

We also determined that the National Government allowed the states on Babeldaob Island
to develop their own interstate and intrastate road systems without any central coordination
or oversight from the National Government, which, according to the Palau Environmental
Quality Protection Board, has had a negative environmental impact beyond the boundaries
of the individual states. Specifically, in an April 15,1998 letter to the President of Palau, the
Board said that many of the newly constructed state roads had been “poorly planned,
executed and maintained” and were contributing “heavily” to the sedimentation of streams
and surrounding reefs on Babe&rob Island, which will “eventually lead to their destruction.”
Further, the Board requested the President of Palau’s support in declaring a moratorium on
all state road construction on Babeldaob Island until the Compact Road8 had been
constructed to ensure that future planning and construction of state roads would complement
the Compact Road, ensure accessibility between the Compact Road and state roads, and
minimize the negative environmental impact of road construction. However, the President
did not support the Board’s request, and for fiscal year 1999, the National Government
appropriated Section 2 12(b) funds of $83 1,000 for roads, including $821,000 for states on
Babeldaob Island, which consisted of $643,500 for new roads and pavings and $177,500 for
road maintenance.

        Heavy Equipment. The Implementation Agreement allows Section 2 12(b) funds
to be used for the purchase of heavy equipment but not for the cost of normal repair and
maintenance of such equipment. Despite this restriction and awareness by the National
Congress and the President (as detailed in the paragraphs that follow) of the inefficiency of
allowing each individual state to purchase equipment without adequate provisions for repairs
and maintenance, appropriations of Section 2 12(b) funds continued to be made to individual
states for heavy equipment.




kompact Section 212(a) required the U.S. Government to build a paved road around Babeldaob Island. The
contract for this project was awarded in April 1999, and the project was being managed by the U.S. Army
Corps of Engineers. This Compact-funded road is commonly referred to as the “Compact Road.”

                                                  22
During fiscal years 1995 through 1999, the states received Section 212(b) funds totaling
$846,000 for various types ofheavy equipment to be used in building and maintaining roads
and other construction projects.       The President of Palau, in the November 5, 1997
transmittal letter accompanying his veto of the National Congress proposed fiscal year 1998
state appropriations, stated that “the Republic cannot afford to finance separate public works
road departments for state governments. Much of the Republic’s road construction and
repair [ofj equipment could be performed in a more cost-effective manner if the equipment
were consolidated at the national level.” Additionally, the National Congress 1997 report
on state capital improvement projects was critical of the states for not maintaining their
equipment, which resulted in equipment being “abandoned due to lack of parts, repairs, and
maintenance.” The report said that this practice was a “waste of resources that the Republic
could ill afford.“ The report further stated that the states should coordinate to develop plans
to more efficiently provide for the repair and maintenance of equipment.

During our site visits to 7 of the 10 states on Babeldaob Island during the period of
January 18 to April 5, 1999, we observed 13 pieces of state-owned heavy equipment, 9 that
worked and 4 that were in various stages of disrepair. One state had a garage where
equipment could be worked on in inclement weather, while other states had no equipment
maintenance facilities. In another state, we observed a broken road grader that had been left
on a dirt road for at least 3 months. A member of the U.S. Navy’s Community Action Team
stationed in Palau, which maintained its own heavy equipment, stated that the action team
had offered to transport the state’s grader to the state’s storage yard at no cost but that the
state official responsible for the equipment declined the offer and left the grader on the road
until the needed parts arrived and could be installed. Without performing an in-depth
analysis of the actual maintenance work performed on the grader, we could not determine
whether the grader had broken down because of misuse or because of poor preventative
maintenance. However, in fiscal year 1999, this state had been appropriated Section 212(b)
funds of $80,000 for “repair of heavy equipment.”

In discussing with state officials on Babeldaoblsland the President’s November 1997 request
for equipment to be consolidated at the national level, one state governor stated that
consolidating state public works departments would not be workable because the states might
not cooperate. However, another state official said that he believed that consolidating state
public works departments would be workable, at least on Babeldaob Island, because the
island is only 27 miles long. We were unable to identify any National Government official
who was responsible for working with the states to implement the President’s request for
consolidation. In fiscal year 1999, four states on Babeldaob Island received Section 2 12(b)
appropriations totaling $414,000 for the purchase and maintenance of heavy equipment.
Therefore, we concluded that actions had not been taken to consolidate the public works
departments ofthe states to use Section 2 12(b) funds more efficiently and effectively to meet
the heavy equipment needs of the states.

       Buildings   and Facilities.  During fiscal years 1995 through 1999, the states received
Section 2 12(b) funds totaling $3,267,800 as follows: $465,000 for sports facilities, $427,000




                                             23
for community centers, $520,000 for bais,’ $40,000 for school buildings, and $1,8 15,800 for
state administration buildings. The National Congress 1997 report stated that many of the
state capital improvement projects financed with Section 212(b) funds were “non-revenue
generating and do not meet the economic development objectives of each state and the
nation.” The report was critical of the appropriation of Section 2 12(b) funds for the
construction of the bais, stating that “most of these bais have been abandoned, neglected
and some are not being used at all.” During our site visits to selected states, we inspected
a youth center that had been constructed with Section 2 12(b) funds of $175,000. A National
Congress Senator stated that the facility did not appear to be used and was showing signs of
neglect. Based on our observations, we believe that, without additional state revenues or
supplemental operational funding from the National Government, the states will not be
financially able to provide an adequate level of routine maintenance of facilities constructed
with Section 2 12(b) funds. This lack of routine maintenance may result in the deterioration
of the structures and the eventual need for additional funds to renovate the facilities. If this
occurs, Section 2 12(b) funds of $3.3 million will have been spent without long-term
economic development that produces additional revenues for the Republic of Palau and the
individual states.

         Land Use Planning.           The National Congress 1997 report on state capital
improvement projects stated that, in developing plans for such projects, the states should
consider the planned location of the projects. The report, to illustrate this point, described
a situation in which a state built its state capitol approximately 10 feet from an existing road,
noting that if the road was ever expanded, the building would have to be relocated. The
following year, two agencies of the National Government’s Executive Branch cited the lack
of control over development and land use planning as follows:

        - In an October 8, 1998 letter to the President of Palau, the Environmental Quality
Protection Board stated that the potential existed for uncontrolled development on Babeldaob
Island and emphasized that each state should develop a land use master plan and enact
zoning laws to ensure that development in each state proceeded in an “environmentally
sound and sustainable manner.”

         _  In a December 1998 report titled “Land Use Implementation Strategy for the
Republic of Palau,” the Bureau of Lands and Survey recommended that the National
Congress reinstate the Palau Planning Commission, which was established by Title 3 1 ofthe
Palau National Code Annotated, to implement land use master plans. The report stated that
“only rudimentary” land use planning and zoning existed in Palau (which has only 188
square miles of land) and that improper land use, such as that related to constructing roads,
dumping waste, and clearing land, can have a significant negative impact on Palau’s
terrestrial and marine environments.

During our visit to 7 ofthe 10 states on Babeldaob Island, we also noted that urban planning
had not been considered. For example, in one state, a $100,000 community center had been


&is   are traditional   meeting houses in Palau where the cultural leaders within each state meet to discuss
various issues affecting their community.

                                                      24
constructed on filled land on the ocean side of a road that followed the shoreline. The
placement of the building was approximately 6 feet from the edge of the filled land, which
was exposed to wave action. The governor of the state where the building was located said
that the state did not have any zoning laws which required that buildings be set back a
specific minimum distance from the shoreline. In our opinion, because of the placement of
the building so close to the shoreline, wave action during a storm could erode the filled land,
resulting in the loss of or damage to the community center.

 We also found that only 4 of 16 states of the Republic of Palau had land use master plans and
that only 1 of the 16 states adhered to some form of zoning regulation. Two of the state
governors told us that rather than developing land use master plans on their own, they were
working on the development of a combined master plan for all of the states. One state
governor further stated that all 16 state governors supported the development of a combined
master land use plan for all the states. The state governor also said that a combined approach
should be used for land-use planning for Babeldaob Island because not every state had sand
beaches for resort hotels and that the strengths and weaknesses ofthe states should be viewed
as a whole when planning for future development. However, as of September 1999, work
on a combined land use master plan had not reached the contracting stage. In our opinion,
because of the negatil-e impact that inadequate land-use planning can have on the long-term
economic development and the environment of Palau, a moratorium should be placed on
future Section 212(b) funding of state capital improvement projects until the
recommendations made in the Land Use Implementation Strategy for the Republic of Palau,
issued by the Bureau of Lands and Surveys, are implemented.

         Project Specifications. We found that there was a general lack of uniformity and
 sufficient detail in the information provided to the Office of the President and the National
 Congress by the states in justifying proposed capital improvement projects. As a result, key
officials of the Executive Branch and the National Congress were not fully aware of the
scope of work and of the total funding required for each proposed project. Therefore,
sufficient funds were not always appropriated to ensure successful completion of the
projects. The National Congress 1997 report indirectly commented on this lack of
information when it stated that docks and piers were not built strong enough to prevent
erosion from the ocean and recommended that “sufficient sums be appropriated on a
one-time basis” to construct more durable docks, which would save financial resources in the
long term. The report also stated that approved projects were not always started in the year
for which funds were appropriated and that the delays resulted in the costs of the projects
being increased. Additionally, a state official told us that, in his opinion, approved projects
should not be started until sufficient funds have been appropriated and are available to
properly carry out the projects. However, we found that the Office of the President and the
National Congress had not taken corrective actions to require states to standardize project
proposals and to provide greater detail as to the costs and other considerations related to their
proposals. We found, for the fiscal year 1999 appropriation process, that the lack of adequate
information on proposed projects was evident. For example:

       - The written justification submitted by a state for Section 212(b) funding of
$100.000 in fiscal year 1999 for the Back-Hoe & Round Island Road Project stated that the


                                               2.5
 state, “for infrastructure purposes, . . . has a great need for a heavy equipment” and that this
  “single equipment” would be used “to clear a single road around the island and for other
 purposes. ” The justification further stated that the road is included in the state’s Master
 Development Plan and that $100,000 is needed for equipment, manpower, and other tools.
 However, the information provided in the justification did not identify the estimated costs
 of labor, equipment, and materials needed to build the road; the estimated time frame to
 complete the project; a description of any environmental and zoning considerations or lack
 thereoc and an estimate of future costs to maintain the road. The National Congress
 approved the appropriation of $100,000, but the President of Palau subsequently vetoed the
 appropriation without explaining the reasons for the veto.

        - The National Congress approved another appropriation of $141,000 for a state
project to pave a 2-mile portion ofa state road. The President of Palau subsequently reduced
the appropriation to $12 1,000 without explaining the reasons for the reduction. The state’s
executive officer stated that the original %14 1,000 amount was not based on an engineering
estimate but was developed arbitrarily. The executive officer also stated that he was not sure
whether the original estimate had included the cost of preparing the roadbed for paving. In
this case, the National Congress made an appropriation, and the President changed the
amount without detailed information as to the extent of work required or a reasonable
estimate of the project’s cost.

The President of Palau said that he had not historically requested that the individual states
submit detailed information and in a standardized format for proposed projects. However,
both the President of the Senate and the Speaker of the House for the National Congress
agreed that project proposals were not sufliciently detailed or standardized in format for the
Office of the President and the National Congress to use in deciding which projects to fund
and the amount of funding to provide.          The Chief of the Division of Budget and
Management, which coordinates and summarizes the detailed budget for the National
Government, said that it would be helpful to have standard budget submissions for all state
capital improvement projects.

Project Procurement          and Management

States were performing the construction procurement and management functions without
adequately trained personnel. This condition existed because the Palau National Code
allowed each state governor or his/her designee to be the procurement officer for
construction services without specifying the qualifications needed to function in that
capacity. We determined that states had little assurance that costs totaling $205,000 incurred
on two Section 212(b)-funded projects were reasonable for work performed or that the
projects were properly designed and built.

Title 40, Section 608(a), of the Palau National Code Annotated designated the Director of
the Bureau of Public Works as the National Government7s procurement officer for
construction, architectural, and engineering contracts. However, the Code states that “the
Procurement Officer for each state government shall be that person designated by each state
governor.” Further, Section 608(b) of the Code states, “The Procurement Officers are

                                              26
authorized [to]: . . . procure or supervise the procurement of all goods, services, and
construction needed by the government; . . . [and] . . . establish and maintain a program for
the inspection, testing, and acceptance of supplies, services, and construction.” Since the law
did not require any minimum qualifications for the person designated as the Procurement
Officer, there was no assurance that the procurement and project management functions were
performed by qualified individuals at the state level. In addition, there was no requirement
in the Code that a National Government agency, such as the Division of Design Engineering
of the Bureau of Public Works, should inspect the construction work performed.

In that regard, the National Congress 1997 report stated that the quality of construction was
questionable and recommended that projects involving construction be._inspected by the
Division of Design Engineering. However, the-Division participated in state-projects only
if requested by the individual states. Additionally, in December 1998, as a result of
problems with the use of construction funds by the states, the President of Palau requested
that a manager/engineer from the Ministry of Resources and Development assist the states
with the design, engineering, and procurement functions as a “project coordinator.”
However, this “project coordinator” position was not filled because of staff shortages at the
Ministry.

The Republic of Palau did not have a uniform building code; thus, there were no construction
standards for all buildings, roads, bridges, and other structures. The National Master
Development Plan, which was issued in April 1996, emphasized the need for a uniform
building code and stressed that electrical wiring, sanitary facilities, structural design, and
energy insulation should be major elements of a uniform building code. The negative impact
ofallowing states to administer construction projects without National Government oversight
and without the benefit of a uniform building code is illustrated by two state projects as
follows:

        - State Capitol Expansion. A state received Section 212(b) funds of $65,000 to add
a second floor to its state capitol building (see Figure 3). In August 1998, the state
competitively awarded a $35,000 construction contract, even though the original project
estimate was between $45,000 and $50,000. After the project was started, the state governor
approved an $8,182 change order that was requested by the contractor to add a concrete beam
and a column to the original construction designs. The state governor (who was the state
procurement officer and who also performed the construction management functions) told
us that he approved the change order without checking with the architect who designed the
second floor addition because the contractor had concerns about the roof sagging from its
weight.




                                             27
      Figure3. Thefront oftk      SIUI~capitol building with the secondilrm    trdditlon. (Oflice ofInspector
      General photograph)



During a visit to the project site on January 18, 1999, we observed signs of honeycombing”
in the bottom portion of the beam that had been added to the structure. The honeycombing
existed to such an extent that we could see the reinforcing steel bars within the beam (see
Figure 4). We also observed that channels were chipped into the walls to accommodate the
installation of electrical conduits. When we revisited the project site on March 30, 1999, we
noted that the additional beam and a column that had been observed in January had been
removed. Additionally, the channels that had been chipped for electrical conduits had been
covered and plastered over, thereby concealing the conduits.




“Honeycombing is a condition in which air pockets or voids are left in concrete structures. This condition is
prevented by vibrating the concrete when it is poured into the forms to allow it to settle and fill all air pockets.

                                                        28
             Figure 4. Close-up of the air pockets and the exposedsteel reinforcement bars
             in a beam added to the state capital building shown in Figure 3. (Ofice of
             Inspector General photograph)




The contractor stated that the additional beam was removed by his workers “without [his]
permission” and that his concerns over the need for additional support for the roof had not
been resolved. The designer of the project, who was an architect at the Bureau of Public
Works, stated that he was never contacted by the state governor or the contractor regarding
their concerns about the adequacy of support for the roof. The designer further stated that
his plans called for the electrical conduits to be laid within the wall when it was constructed
and not placed in channels chipped into the wall after its construction.

On September 29, 1998, the state governor requested that the Director of the Bureau of
Treasury allot the remaining $30,000 of the project balance. The governor stated that he
needed the $30,000 to pay for the contract change order of $8,182, purchase furniture costing
$13,38 1 for the capitol building, and perform renovation work costing $8,437 on the first
floor of the building. The governor also stated that the work on the first floor was not
included as part of the initial scope of work because he was not certain that there would be
sufficient funds to do all the desired work. The governor further stated that completion of
the second floor work would cost about $49,000. When we asked the governor how the
$49,000 related to the $43,182 ($35,000 plus $8,182) the contractor had received for work
on the second floor, the governor indicated that he was not certain.

        Bridge Construction. A state received Section 212(b) funds of $140,000 to build
a 46-foot-long and 20-foot-wide bridge over a river as part of a road building project. The
state obtained the services of an off-island engineer to design the bridge without charge.


                                                29
When we reviewed the plans and specifications that were used for soliciting bids, we noted
that there was no indication on the documents of the designer’s professional qualifications
or of the standards used in the design of the bridge, which, according to the specifications,
was supposed to be able to accommodate an “80-ton crawler crane.” The state governor, who
was also the state procurement officer, awarded a contract of $139,48 1 to the highest of three
bidders after two of the bidders were disqualified for not complying with bidding
instructions. The governor stated that he managed the project himself, including performing
inspections, without oversight by the Division of Design Engineering. He also said that the
contractor had hired an individual experienced in bridge building to manage the construction
project for the contractor. However, when we asked the governor for inspection records
documenting that the five steel “H” piles needed to support one end of the bridge had been
driven to the required depth,’ ’ records were not provided. In addition, during our site visit
to the bridge on March 30, I999 (see Figure 5), we observed that the wing wallI on one side
of the bridge was cracked and that, because the wing wall on the same side was not long
enough to prevent erosion of the embankment, a makeshift structure of sheet metal and tree
branches was used to stop erosion (see Figure 6).




     Figure 5. A 46’~ 20’ bridge constructedas part ofa road bui(dingprojecf. The tree branches and
     sheets of galvanized steel (right side) were used to prevent soil erosion because the wing wall was
     built too short. (Ofice of Inspector General photograph)



“Documentation on the driving of each pile should be detailed enough to show that the contractor met the
design specifications for the driving of the piles. In this case, the specifications required that each pile be
driven to a depth of 39.37 feet. The driving could be stopped only if “hard rock” was encountered before the
required depth was reached. Accordingly, an inspector’s documentation of this portion of the contractor’s
work should have been detailed enough to show how deep each pile was driven and the basis for determining
that “hard rock” was reached for piles driven less than the required 39.37 feet.

“Wing walls are retaining walls adjoining the ends of the bridge that are used to keep the backfill on each side
of the bridge from eroding into the river.

                                                      30
The state’s executive officer said that he was uncertain of the status of the cracked wing wall
but that it would “probably” be repaired prior to completing the backfilling of the area
adjoining the bridge ends and that the embankment would also be stabilized.




In summary, we believe that because of inadequate oversight of capital improvement projects
at the state level and no uniform building code, there was little assurance that projects were
designed and built properly. In discussing these deficiencies, both the President and the
leadership of the National Congress said that they were concerned that implementation of
corrective actions might be perceived as an infringement ofthe National Government on the
sovereignty of the individual states. However, because the states receive Compact
Section 212(b) funds through appropriations, the National Government is ultimately
responsible for ensuring that the funds are used efficiently and effectively for Palau’s
long-term economic development.

Recommendations

We recommend that the President of the Republic of Palau:

        1. Take actions, in accordance with the Compact, to prohibit the use of
Section 212(b) funds for the repair and maintenance of roads, equipment, and structures.

        2. Identify and develop an inventory of the existing and proposed state roads that
make up the National interstate road system for Babeldaob Island so that future state road
construction can be properly integrated into an overall roadway system encompassing the
Compact Road and individual state roads.

                                             31
       3. Develop and implement a plan to consolidate the heavy equipment resources for
road maintenance of the states on Babeldaob Island.

       4. Provide technical assistance to the states for the development and implementation
of master land use plans on either a national or a state level.

         5. Enforce Title 3 1 of the Palau National Code Annotated regarding zoning and
request that the Office of Insular Affairs, U.S. Department of the Interior, provide technical
assistance to the states for development and implementation of zoning laws on either a
national or a state level.

       6. Establish written procedures for the development of detailed state capital
improvement project proposals, including a~standardized format to be used by the states
when they request Compact funding for such projects.

        7. Submit proposed legislation to the National Congress to amend Title 40 of the
Palau National Code Annotated to require the Director of the Bureau of Public Works to
procure constructions services for all capital improvement projects appropriated to the states
and to require the Division of Design Engineering to either provide or procure project
management and inspection services for such projects.

        8. Submit proposed legislation to the National Congress to require the National and
state governments of the Republic of Palau to adopt a uniform building code and appropriate
standards for bridge construction.

Republic of Palau Response and Office of Inspector General Reply

The April 7, 2000 response (Appendix 5) to the draft report from the President of the
Republic of Palau indicated concurrence with Recommendations 1, 3, 4, 6, 7, and 8 and
nonconcurrence with Recommendations 2 and 5. Based on the response, we considered
Recommendation 1 resolved and implemented. Also based on the response, we revised
Recommendations 2 and 5. We request that the Republic respond to the revised
recommendations, which are unresolved, and provide target dates and/or titles of officials
responsible for implementation of Recommendations 3,4,6, 7, and 8 (see Appendix 6).

Recommendation     2. Nonconcurrence      indicated.

       Republic    of Palau   Response.     The response indicated nonconcurrence with
Recommendation 2 in the draft report, which called for a moratorium on road construction
until the Compact Road on Babeldaob Island was completed. The response also stated that
construction of an “appropriately sited” interstate road system should continue.

        Office of Inspector General Reply. The recommendation was based on concerns
expressed by the Palau Environmental Protection Board in an April 15, 1998 letter to the
President, which stated that previously constructed state roads on Babeldaob Island were
poorly planned, executed, and maintained, which therefore contributed to sedimentation of


                                              32
streams and surrounding reefs. Although the Environmental Protection Board’s letter did not
identify the funding sources, Compact Section 2 12(b) funds of more than $2 million w-ere
used to fund state roads and bridges, of which $629,500 was for unallowable road
maintenance during fiscal years 1995 through 1999. Therefore, we believe that there should
be a coordinated approach to constructing the Compact Road and individual Compact-funded
state roads that will result in a well-planned interstate road system on Babeldaob Island. We
were unable to determine whether such a coordinated approach was being followed because,
during the audit, we were unable to identify which existing or proposed state roads had been
officially designated as part of a national interstate road system. In keeping with our original
intent and considering the President’s response, we have revised the recommendation to
require the National Government to develop an inventory of current and planned roads that
will connect to the Compact Road as part an interstate road system for Babeldaob Island.
This inventory should assist both the National Government and the individual state
governments when identifying road projects to be financed through Compact Section 2 12(b)
funding.

Recommendation       5. Nonconcurrence      indicated.

        Republic    of Palau Response.    The response stated that the National Government
could not enforce existing zoning laws within Koror State, which already has state zoning
laws, because of the separation of state and national government rights under Palau’s
Constitution. In addition, the response stated that the National Government did not presently
have the manpower or the expertise to assist the states in developing and implementing
zoning laws.

         Office of Inspector General Reply. The response did not address the lack of land
use planning and zoning that the National Government’s Bureau of Lands had identified in
a December 1998 report. The Bureau’s report concluded that the lack of land use planning
and zoning represented a serious threat to Palau’s terrestrial and marine environments. While
there may be concern on the part of the Republic about infringing on the rights of individual
states, we believe that the National Government has a responsibility to identify problems on
a national level and then to function as a catalyst for corrective action to ensure that all states
address such problems as uncontrolled land use. Recommendation 5 took into account the
conflict of National versus state rights by including the option for the National Government
to “provide technical assistance to the states for development and implementation of zoning
laws on either a national or state level.” (Emphasis added.) This approach provides a
measure of flexibility to the process and still provides a basis for addressing national
concerns over unregulated land use. We have revised the recommendation to state that the
National Government should request the Office of Insular Affairs, U.S. Department of the
Interior, to provide technical assistance in developing zoning laws.




                                                33
Recommendation      7. Concurrence indicated.

        Republic   of Palau   Response.      The response indicated concurrence with the
recommendation but stated that because of the issue of states rights, a proposed amendment
to the procurement law will be introduced to require the Director of Public Works to be the
Procurement Officer for only nationally funded construction projects appropriated to the
individual states. The response further stated that since this proposed amendment to the
procurement law would include construction projects financed by Compact Section 212(b)
funds, the types of problems identified in the report should be avoided in the future. The
response also stated that, in anticipation of the increased work load at the state level,
additional technical staff for the Division of Design Engineering will be requested for fiscal
year 2001 to address the construction management and inspection of the nationally funded
state construction projects.

        Office of Inspector General Reply.       The alternative action proposed by the
President meets the intent of the recommendation. The target date and title of the official
responsible for implementation of the recommendation however, are needed.




                                            34
                                                                                           APPENDIX 1



               CLASSIFICATION OF MONETARY AMOUNTS


                                                                                 Funds To Be Put
                       Findiw Areas                                              To Better Use

      A. National Government Projects
         Cost Estimates                                                              $404,212    *
         Project Inspections                                                          351,707    **
         Procurement Requirements                                                     255;ooo    ** *
         Administrative Charges                                                       765,731    **

              Subtotal                                                             $1.776.650

      B. State Projects
         Project Selection                                                         $4.3 11,300 ***
         Project Procurement and Management                                           205,000 ***

              Subtotal                                                             $4.5 16,300

              Totals                                                               $6.292.950




*Amount consists of Federal funds of $28.8 19 and   local funds   of $375,393.
**Amount represents local funds
***Amount represerlts Federal funds.




                                                    35
                                   COMPACT SECTION 212(h) AND RELATED FUNDING
                                       PROVIDED TO THE REPUBLIC OF PALAU
                                             AS OF SEPTEMBER 30,1998


                         Description                           FY-1995             FY-1996             FY-1997            FY-1998             Totals



    Compact Section 2 12(h) Funds Awarded                     $36,000,000                        0                  0                  0   $36,000,000
    Compact Section 2 I.5 inflation    Factor Funds Awarded    16,560,000                        0                                          16,560,OOO
    Interest Earned on Compact Funds (Net l,;xpense)            3.568.086          $4.500.1 19         $7.839.0805        $ I .949.3606     17.865.656
       Compact Funds Awarded and Interest Earned              $56,128,086         $4,509,1 I9          $7,839,085         $1,949,366       $70.425.656
    Prior Year Unappropriated Funds Brought Forward                          0     42.409.286          3 I .02 1,205      30.689.290
       Net Compact Funds Avai table                             56,128,086        46,9 I 8,405         38,860,290        32,638,656
    Less Unappropriated Funds Carried Forward                 - 42.409.186       - 3 I .02 I .205    - 30.689.290       - 25.658.656
        Appropriations of Compact Funds                       $13,718,800        $ I 5,897,200        $8, I7 1,000       $6,980,000        $44.767,000
X   Prior Year Appropriations Brought Forward                                0     10.840.973         16.249.439         11,168,885
       Total Available Appropriations                         $13,718,800        $26,738, I73        $24,420,439        $18,148,885
    Less Expenditures                                          - 2.877.827       -10.488.734         -13.25 1,554        - 7.807.657       $34.425.772


    Unexpended    Appropriations   Carried Forward            $10,840,973        $16.249.439         $1 1.168.885       $10.341.228
                                     CAPITAL IMPROVEMENT    PROJECTS FUNDED BY
                                    THE TRUST TERRlTORY OF THE PACIFIC ISLANDS
                                               AS OF SEPTEMBER 30,199s


                                                           Pro_ject   Fiscal        Total            Total            Available
                          Proiect Title                    Number     Year     Authorkations     Expenditures         Balances


    Rural Water Systems                                     T-209     1984        $9,985,707      $9,064,960           $920,747


    Koror Wastewater     System Improvements                T-224      1991        2,370,479        1,278,64 I         1,091,838


    Koror Wastewater     System Deficiency   Corrections    T-225      1991          654,08 1          28,399            625,682


    Koror-Airai   Water System Improvements                 T-23 I     1993          500,000         452,5 17             47,483


W   Koror Sewage Treatment       Plant Expansion            T-232      1993        5,150,000         285,915           4,864,085
4


    Koror Wastewater     System Pump Station Upgrade        T-233      1993          483,000           84,955            398,045


    Palau National   Hospital                               T-268      I986       23,144,272      23,03 1,320            I 12,952


    Palau National   Hospital-Equipment                     T-268      1992         1,974,800       I ,077,998           896,802

    Koror-Airai   Electric Power Improvements               T-269      1973         I ,452,547                   0     1,452,547


    Koror-Airai   Electrical                               Cl 16354    I990            3 5,000                   0        35,000


    Capitol Relocation                                      T-272      1988       $2.600.000      $2.206.2 11           $393.789
                                                                                                                                    %
                                                                                                                                    ‘”

       Total Funding                                                             $48.349,886     $373510.916         $10.838.970
                                                                                                                                    9

                                                                                                                                    B
                                                                                                                                    w
                                  COMPACT SECTION 212(b) FUNDS APPROPRIATED                                        TO
                                      THE STATES OF THE REPUBLIC OF PALAU
                                             AS OF SEPTEMBER 30,199s


         Project Catecrorv                           FY 1995           FY 1996          FY 1997          FY 1998   FY 1999’         Totals

     Electrical Generators                            $65,500                                                                        $65,500


     Boats and Engines                                          0      $728,000          $200,000           0       $390,000       I ,3 18,000


     Heavy Equipment                                   132,000           279,000                   0        0        449,000         860,000


     Buildings and Facilities                       1,007,800            925,000                   0        0       1,335,ooo      3,267,800
W
00

     Docks and Marinas                                345,000            333,000                   0        0        405,000        1,083,OOO


     Roads and Bridges                                479,000            7 12,000                  0        0         83 1,000     2,022,ooo


     Water Systems and Other Projects                  291.500         2.012.000                    0      0          986.000      3.289.500

        Total Appropriations                       $2.320.800        $4.989.000          $200.000          _-a
                                                                                                           -       $4.396.000    $ I 1.905,800


     ‘Fiscal year I999 Compact Section 2 12(b) appropriations   were effective on November   24, 1998.
                                                                                                 APPEDIX  5
                                                                                                 Page 1 of 9
                                 REPUBLIC OF PALAU
                                   *q+222+%9&

KUNIWO    NAKAMURA
                                                                       P. 0. Box 100. Koror Rrpublic
                                                                                             l          of Pa&u 96940
     9i                                                                Phmc: (680) 488.2403/2S4t       -Fax: (680) 488.1662




    April 6, 2000
    Serial: 141- 00

    Mr. Robert .I. Williams
    Assistant Inspector General for Audits
    Office of the Inspector General
    U.S. Department of the Interior
    Washington, D.C. 20240

    Re:      DRAFT AUDIT REPORT NO. N-IN-PAL-002-99-R

    Dear Mr. Williams:

    Thank you for the opportunie to respond to the draft audit report referenced abovfe dated
    February 17,2000, regarding management and oversight ofselected construction projects in
    the Republic of Palau. Our response w.ill follow- the draft audit report findings and
    recommendations     in terms of being divided into Part A. National Government Projects. and
    Part B, State Projects.

    In response to Part A of the draft audit report. we are pleased to say that we have instituted
    significant   improvements      to the Palau National Government        Capital Improvement
    Program/Design      Engineering    Office (hereafter. “CIP Office”) related to the auditor
    recommendations     offered u.hile the audit was in progress. These efforts have been assisted
    by additional funding that has been provided this fiscal year for the CIP Office for additional
    necessary operating expenses and to hire two additional construction project inspectors.
    Other improvements are also discussed throughout this letter.

    The Palau National Congress (the .‘Olbiil Era Kelulau.” or *-OEK”) has authorized the
    Ministry ofResources and Development (“MIZD’) to prepare, design and implement national
    construction projects in accordance with appropriation laws and other relevant laws of the
    Republic of Palau. The CIP Office cvorks in accordance with guidelines and procedures set
    forth by the Ministry of Resources and Development. Legislation enacted in October 1999
    directed the CIP Office to inspect national and state construction projects to ensure proper



                                                  39
                                                                                  APPEDIX  5
                                                                                  Page 2 of 9



April 6, 2000
Serial: 141- 00
P.2

project implementation   in accordance with accepted construction standards (ref: Republic
of Palau Public Law No. 5-34, Section 26). Under this section, the CIP Office was directed
to adopt regulations that set the standards for buildin g government construction projects.

In specific response to audit recommendations,      we have already taken or will soon take the
following actions:

1.      The Ministry of Resources      and Development will work with the Office of Insular
        Affairs, U.S. Department       of the Interior? regarding a request for a Technical
        Assistance Grant to contract    with the U.S. Naval Facilities Engineering Command to
        perform an assessment and      evaluation of the capabilities of the CIP/DEO.

3
L.      The Ministry ofResources and Development and the Bureau ofPublic Service System
        have coordinated their efforts for recruitment of qualified individuals.

3.      The Bureau of Public Service System follows an approved civil service classification
        system for all government employees. If the assessment described in point 1 above
        results in recommendations    for classification of professional engineering and other
        technical positions. the Bureau of Public Scn,ice System will be directed to sdd an>
        new classifications. or change existing classifications.

4.      The Ministry ofResources and Development CIP Office has recently worked with the
        Bureau of National Treasury, Division of Finance and Accounting, to establish
        specific guidelines for the allocation of annual, sick and other leaves of absence of
        CIP Office staff to appropriate overhead. administration, or construction accounts.

_
3.     The Ministry of Resources and Development have agreed to the request of the Koror
       State Government for the use of a combination mechanical/wetlands      ponding system
       for the Malakal Waste Water Treatment Plant.             Accordingly,  a Request for
       Qualifications has been issued to interested contractors. We have also requesrsd the
       Attorney General’s Office for assistance in reviewing the legal aspects of the RFQ in
       light of a previous awarding of a contract to a local company to do the original work
       (prior to the change in scope to add ponding).

Enclosed are copies of correspondence     and other documents related to the above points, for
your reference.

We would like to clarify some of the questions and concerns mentioned       in the audit report



                                               40
                                                                                  APPENDIX 5
                                                                                  Page 3 of 9



April&2000
Serial:
      141- 00
P.3

about specific projects. For the Peleliu Water Project and the Echang Sewer Project, Mr.
Mark Braccia, a U.S. Registered Professional Engineer, was assigned these projects while
working in the CIP Office during the period 1995 - 1997. This conforms to the requirement
that construction projects funded by the Department of the Interior (“DOI”) are to be
managed by a qualified professional engineer. Regarding the change orders for these two
projects, these change orders were orally agreed upon at that time by the DO1 construction
consultant and Mr. Braccia. in order to proceed with the changes in the work in order not to
delay the projects. Within the same period the DOI Palau office was closed, which affected
project coordination with DOI. During that time also, the contractor was already working on
the change orders without the normal change order procedure. By the time the CIP Office
was notified by the DO1 Palau office (w,hen it was reopened) that the change orders where
not approved: the contractor had already completed the work including the changes made on
original scope.

Phase I of the Peleliu Water Sy.stem project (done by OICC) v\‘as a Canvas Water Catchment
at the Peleliu air strip (i.e., airport) and wood platform to hold 3 ten thousand gallon tanks
situated on the hill were found not sufficient to satisfy its intended purpose. In 1995 - 1996,
the CIP Office received approv.al from DOI to improve the w’ater system at the school area
and Imelechol Hamlet and at the same time the contractor. kIonrere>, h,lechanical Cornpan)
(“MMC”) re pl aced the wood platform done by OICC with concrete.                This item was
overlooked during the time of OICC and it had to be replaced with concrete in order for the
platform to support the 3 water tanks without them breaking or collapsing.          Before this
change was made, the water operator had to stop using these tanks for safety reasons. In
addition to the platform, the contractor (MMC) was also able to trace and repair the leak at
the existing water line. These changes (platform and repair of leak) have benefited the
people of Peleliu by providing them a 24 hours daily water supply system.

Regarding deficiencies on some of the old projects managed by OICC, the government was
able to secure Grant Aid from Japan to correct several deficiencies.       Notable among these
projects is the additional water line from Ngerikiil in Airai to fill the 500.000 gallons water
tank at Ketund (hill) at Meyuns Hamlet in Koror. This was necessary because upon project
completion there was not sufficient water pressure to fill the tank. The same situation is also
the case at the Malakal water tank w.here the pressure is not sufficient to reach the tank.
Funding will be sought to install additional lines in order to utilize the tank.

The CIP Office with the guidance of the Minister of Resources and Development as the
Contracting Officer always strives to improve the implementation of national and state CIP
projects to meet approved construction standards at the lowest cost. This is done with the



                                              41
                                                                                      APPENlIX 5
                                                                                      Page 4 of 9



 April     6, 2000
 Serial:    14 I-00
 P.4

support and cooperation ofthe CIP management. engineers, architects, surveyors, inspectors,
and administrative staffavailable. In addition to the current staff, hvo professional engineers
are presently being recruited to assist in the Compact Road and Capital Relocation CIP
projects. Within this fiscal year it is also planned to hire an electrical and/or mechanical
engineer to augment the technical staff.

The CIP Office is working closely with all parties involved in CIP projects to ensure that the
 implementation   of projects throughout the country adheres to the procurement law of the
Republic of Palau. In the case ofbidding for the Malakal Waste Water Treatment Plant (i.e.,
the Koror Sewage Treatment Plant Expansion Project), the CIP Office and the Minister of
Resources and Development after careful evaluation and study of the participants deemed
it best not to put the Palau National Government        at risk by aw:arding a contract of this
magnitude ($3 million) to a company from a foreign country that conducts business in a
manner different from Palau. In addition, we were concerned about what recourse Palau
would have in the case of a contract default by the contractor. It was believed that in the
event the contractor could nor fulfil its contractual obligations. recoL.ering Palau’s financial
investment might prove to be difficult. Therefore. the issue involved was not simply a matter
of bid bonds, it was a matter of having requiring a bid bond issued by a U.S. Treasury-
approved surety firm so that Palau would have an acceptable legal avenue to recover
damages. Procedural errors made in notibing the bidders, particularly the foreign contractor.
of bid bond requirements will be a\.oided in the future by, issuance of clearer bidding
instructions.

The Republic of Palau is a young independent nation in the process of development and may
require aid and technical assistance from other nations from time-to-time. Implementation
of audit recommendations      cannot happen overnight. as the process of systems development,
staff training: and other improvements take considerable time. We will. however, continue
to train and develop local staff to meet U.S. standards. For your information the following
is a fist of training completed and planned for the CIP Office staff:


6.          In late 1994 and early 1995. the CIP Office sent four inspectors to participate   in an
            OICC electrical training for inspectors course. This was funded by the DOI.

7.          In 1998, most of the CIP staff attended a computer training course specifically on
            Auto-CAD. This training assisting the CIP Office in being able to produce better and
            faster drawings (architectural and engineering, including suneys) thereafter.

8.          We have requested additional staff training, through the DO1 - Palau office. We are



                                                  42
                                                                                   APPENDIX 5
                                                                                   Page 5 of 9



 April 6, 2000
 Serial:   14 I- 00
 P.5

           waiting for a reply and to firm up the training courses, venue and schedule.

 9.        We have requested that Palau Community College (“PCC”) draft a training course for
           construction inspectors to be held at night. PCC is currently working with us on this
           project.

 Regarding the residual balances of several DOI-funded projects that have been completed,
the CIP Office has made numerous requests to utilize the remaining funds for purposes
related to original U.S. appropriations, with the intention of improving the scope ofthe work
of key projects. This is similar to what has been done with several CIP projects fUnded with
Palau National Government fi_mds, whereby the lowest bid received is less than the amount
budgeted/appropriated     for a project, and the savings are used to improve the scope of the
work. We have requested using DO1 CIP project residual balances to improve existing water
systems, to improve the Koror sewer system, and for other infrastructure purposes such as
school building repairs. It is our understanding that Palau Lvill not be allowed to use any of
the residual balances of DOI CIP projects, that these funds u.ill be either returned to the C.S.
Treasury, or “pooled” to be re-used for high priority projects in the Freely Associated States?
although Palau may not have projects that are as of high a priority as the other Freely
Associated States.

 Since 1994 the CIP Office has managed 120 projects, of u.hich 90% have been completed.
 There is no doubt that these projects have pro\lided great benefits to the people of Palau in
 terms of better infrastructure and the services they provide -- thereby improving the quality
 of life, and similarly, improving the economy of Palau. Although the changes may not be so
 obvious to an outsider, the CIP Office has through the years gained considerable knowledge
about the administration and management of CIP projects through this varied and intense
experience. Together: the Minister of Resources and Development, as Contracting Officer
(i.e., Procurement Officer), and the CIP Office, as the construction projects manager? have
always been very conscientious in the preparation and awarding of construction contracts.
In cases where contracting questions arise, the Office of the Attorney General is requested
to clarify and settle specific issues and concerns raised by the parties involved, prior to any
decision on au,arding of a contract. Processing contracts and change orders in accordance
i+ith appficable laws: and in the case ofDOI-funded projects. with DOI approval. has alwajfs
been a foremost concern of the CIP Office.

The audit findings and recommendations   regarding Part B, State Projects, have also been
reviewed and the response to the recommendations stated on page 24 of the report follows.




                                              43
                                                                               APPENDIX 5
                                                                               Page 6 of 9



April6,2000
Serial:
      141-00
p.6

 1.   The President will ensure that Compact Section 212(b) fknds are no longer utilized
      for the repair and maintenance of roads, equipment and structures, by taking all
      appropriate actions necessary to ensure that Palau remains in compliance with the
      letter and spirit of the Compact of Free Association. The President will not introduce
      appropriation legislation that proposes use of Section 212(b) f%nds for other than
      allowable purposes specified in the Compact. Because the Olbiil Era Kelulau
      (“OEK”) frequently changes the President’s proposed sources of funds for
      appropriations and also add new items to appropriation bills, the President will also
      carefully review legislation prior to passage by the Olbiil Era Kelulau, and upon the
      legislation’s passage, to determine       if Section 2 12(b) fimds have been used
      inappropriately, and if so, to take whatever action is necessary to correct the funding
      problem.

2.     While Palau agrees that road construction on Babeldaob must be done in a
      coordinated manner and should be undertaken kvith the ultimate goal of establishing
      a well-planned and fully-integrated interstate road system, the length of time which
      has gone into planning the Compact Road, the details with which such plans have
      been laid out, and the considerable amount of time it will take lo complete the
      Compact Road makes a complete moratorium on all road construction throughout
      Palau unrealistic and unnecessary.      The construction of new roads on islands other
      than Babeldaob should not have an> impact on the Compact Road. The construction
      or upgrading of certain roads: especially appropriately sited connecting roads, on
      Babeldaob can be undertaken without compromising the goal of a well planned and
      fully-integrated road system largely because there is little or no room for changes to
      the existing plans for the Compact Road. The Compact Road’s route and many ofthe
      necessan’ points of connection to the Compact Road can be plotted \vith certainty.
      As a result, planning and, to an extent: construction ofadditional roads on Babeldaob
      can be conducted while construction progresses on the Compact Road and still allow
      for the desired result.

3.    The Ministry of Resources and Development will initiate efforts to develop a plan to
      consolidate national and state government heavy equipment resources for road
      maintenance, provided that a study corroborates the audit recommendations.      The
      proposed study would address the feasibility and necessity of centralized heavy
      equipment pool compared to a decentralized heavy equipment system (in which states
      retain road construction and repair equipment for their own use). There are many
      policy issues involved in this matter, including states’ rights and ownership of
      equipment, and manpower availability at the national government level.An equipment



                                            44
                                                                                  APPENDIX 5
                                                                                  Page 7 of 9


 April6,2000
 Serial:
       141-00
P.7

       consolidation plan would have to have the full support and cooperation of the state
       governments.     The national government      does not have authority over state
       governments,  and cannot force any state to turn its heavy road equipment into a
       “pool.” The possibility of creating an equipment pool by law may also be explored.

4.     RPPL No. 5-38 appropriated $440,000 for development of master plans for all states.
       Within the constraints of limited manpower and finances: the national government
       will also make every effort to provide technical assistance to the states for the
       development and implementation of master land use plans.

5.    The National Government shares the Auditor’s concern that the zoning laws of the
       State of Koror should be enforced in Koror. However, under the Constitutional
      government of the Republic, similar to that of the United States, there are federalism
      concerns implicated by the Auditor’s recommendation    which may limit the Republic’s
      ability to implement this suggestion. Pursuant to the Constitution and laws of the
      Republic ofPalau, the enactment, policing, and enforcement ofthe Koror Zoning Law
      has been committed to the discretion of the state, specifically, to the Building and
      Zoning Official of Koror State. It would be an illegal arrogation of authority for the
      National Government to attempt to enforce that law without an act of the Olbiil Era
      Kelulau rescinding the authoriy which has been granted to Koror State to establish
      zoning and building codes within its jurisdiction.        Nonetheless, the National
      Government will confer with and, to the extent permitted by law, work with Koror
      State to see that the existing provisions of law are enforced there. The Executive
      Branch ofthe Palau National Government does not presently have the manpower and
      expertise to provide technical assistance to the states for development             and
      implementation   of zoning laws.

6.    The Ministry of Resources and Development            will work with the Ministry of
      Administration    to establish written procedures for the development of detailed state
      capital improvement program project proposals, including a standardized format to
      be used by the states when they request Compact funding for such projects. This is
      expected to be completed in time for states to submit CIP project funding requests for
      fiscal year 2001. late in fiscal .vear 2000. The state CIP proposals would require
      submission of preliminary cost estimates, the proposed scope of work, the projected
      future operations, maintenance and repairs costs of each project: as well as specifying
      future responsibilities in these areas.

7.    The existing   provisions   of Title 40, which   expressly   declare   that the laws and



                                            45
                                                                                 APPEhZlIX 5
                                                                                 Page 8 of 9



 April6,200O
 Serial:
       141-00
p.8

       procedures set forth therein apply to all procurement actions within the Republic,
       whether by the National Government or the State Governments (see 40 PNCA §603),
       and also expressly identify the Director of the Bureau of Public Works as the
       Procurement Officer for construction projects (see 40 PNCA $608). However, part
       (a) of this later section of the PNCA also states that “The Procurement Officer for
       each state government shall be that person designated by each state government.”
       Therefore, state governments      have been responsible for procurement       of goods,
       construction and contractual services for all fi_mds under their authority, including
       national government appropriations for state CIP projects. Therefore, it is proposed
       to amend the law so that for the obligation and expenditure of funds resulting from
       revenues generated by the states, the Procurement Officer for each state government
       shall be that person designated by each state government. For funds which each state
       receives from the national government for state CIP projects, the Director of Public
       Works shall be the Procurement Officer. For fUnds which each state receives from the
       national government for the purchase of goods or contractual services (other than
       construction, architectural, design, and surveying) the states could remain responsible
       for their own procurement, with technical assistance available from the national
       government to assist the states with such procurement upon request.

      In Part A on the audit report it has been recommended, and we concured, that the
      contracting, management and inspection capacity ofthe Bureau of Public Works must
      be improved. At this time, there is insufficient manpower and expertise in the Bureau
      of Public Works to undertake additional state construction project responsibilities.
      Therefore, it is planned that when developing the fiscal year budget, sufficient funds
      will be requested to strengthen the Bureau of Public Works Division of Design
      Engineering to enable it to take over state procurement         of construction    and
      management and inspection ofstate projects, with the proposed legislation that would
      make this mandatory to follow -- if the OEK indicates that it is in favor of this
      approach and is willing to appropriate sufficient fUnding for the Division of Design
      Engineering.

8.    The National Government has begun examining options for establishing a national
      building code and has opened discussions with consulting firms with expertise in the
      subject for the possible drafting of such a code. The National Government will also
      explore appropriate opportunities for assistance in developing standards for bridge
      construction. The OEK has given the uniform building code considerable attention
      within the last two years, and is expected to work closely with the President in
      enacting uniform building code legislation.      Building code legislation will likely



                                             46
                                                                                 APPENDIX 5
                                                                                 Page   9 of     9


April 6, 2000
Serial: 141- 00
P.9

        establish the broad requirements for a code, with the actual code to be established
        administratively.  However, regarding the uniform building code, and particularly in
        respect to bridge construction, the efforts of the National Government are subject to
        the same concerns as those brought out in the response to zoning (item 5 preceding)
        with respect to the division of powers and authority between the national and state
        governments. Nonetheless, the National Government will confer with the varios state
        governments in an attempt to establish appropriate uniform codes for building and
        bridge construction throughout Palau. Enactment ofa uniform building code law and
        implementation of the code is planned for no later than December 3 1, 2000.

We look forward to a continued beneficial and productive   relationship with the Office of the
Inspector GeneraI.

Sincerely,    ,.




                              Palau

Enclosures




                                             47
                                                                              APPENDIX 6
                                                                                Page 1 of 2

       STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
        Reference            Status                        Action Required

          A.1            Management           Provide the target date and the title of
                         concurs;             the official responsible for formally
                         additional           requesting an assessment and evaluation
                         information          of the Division of Design Engineering
                         needed.              by the Office of Insular Affairs.

          A.2            Management          Provide the target date and the title of
                         concurs;            the official responsible for initiating the
                         additional          recruitment of the positions identified in
                         information         the recommendation.
                         needed.

          *4.3           Management          Provide the target date and the title of
                         concurs;            the official responsible for developing
                         additional          new position classifications for
                         information         positions identified in the assessment
                         needed.             contemplated by Recommendation        A. 1.

          A.4            Management          Provide the target date and the title of
                         concurs;            the official responsible for coordinating
                         additional          the establishment of cost allocation
                         information         guidelines for fringe benefit costs of
                         needed.             inspectors.

          A.5            Management          Provide the target date and the title of
                         concurs;            the official responsible for completing
                         additional          the Malakal sewage treatment plan
                         information         expansion project.
                         needed.

          B.l            Implemented.        No further action is required.

          B.2            Unresolved.         Respond to the revised
                                             recommendation,     and provide the target
                                             date and the title of the official
                                             responsible for developing an inventory
                                             of state roads on Babeldaob Islands that
                                             will be integrated into a comprehensive
                                             interstate roadway system that includes
                                             the Compact Road.

                                        48
                                                                             APPENDIX 6
                                                                               Page 2 of 2


Finding/Recommendation
        Reference           Status                       .-2ction Required

          B.3            Management         Provide the target date and the title of
                         concurs;           the official responsible for developing
                         additional         the consolidation road maintenance
                         information        plan.
                         needed.

          B.4            Management         Provide the target date and the title of
                         concurs;           the official responsible for coordinating
                         additional         technical assistance to the states for
                         information        development and implementation of
                         needed.            master land use plans.

          B.5            Unresolved         Respond to the revised
                                            recommendation, and provide an action
                                            plan that includes the target date and the
                                            title of the official responsible for
                                            developing and implementing zoning
                                            laws on either the individual state or the
                                            national level.
          B.6            Management
                         concurs;           Provide the target date and the title of
                         additional         the official responsible for
                         information        implementing standardized procedures
                         needed.            for the development of state capital
                                            improvement project proposals.
          B.7            Management
                         concurs;           Provide the target date and the title of
                         additional         the official responsible for drafting the
                         information        proposed legislation to amend Title 40
                         needed.            of the Palau National Code Annotated
                                            regarding the procurement authority of
                                            the Director of the Bureau of Public
                                            Works.
          B.8            Management
                         concurs;           Provide the target date and the title of
                         additional         the official responsible for
                         information        implementing a uniform building code.
                         needed.




                                       49
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                    Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental          United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420



                  Outside the Continental         United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-922 1
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (67 1) 647-6060
Offke of Inspector General
Guam Field Pacific Office
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
J
iJ  l




        U.S. Department of the Interior
        Office of Inspector General
        1849 C Street, NW
        Mail Stop 5341- MIB
        Washington, D.C. 20240-000 1

        Toll Free Number
              l-800-424-508 1

        Commercial Numbers
            (202) 208-5300
            TDD (202) 208-2420
